TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Oversight of the Electronic Fraud Detection
                System Restoration Activities Has Improved,
                              but Risks Remain



                                          March 29, 2007

                              Reference Number: 2007-20-052




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(a) = Identifying Information - Name of an Individual or Individuals
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 29, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Oversight of the Electronic Fraud Detection
                             System Restoration Activities Has Improved, but Risks Remain
                             (Audit # 200620042)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) adequately monitored the contractors’ development efforts in 2006 to ensure the Electronic
 Fraud Detection System (hereafter referred to as EFDS or System)1 was delivered in time for the
 2007 Filing Season. This audit is a follow-up to a prior Treasury Inspector General for Tax
 Administration audit.2

 Impact on the Taxpayer
 The EFDS is the primary information system used to support the Criminal Investigation
 Division’s Questionable Refund Program, which is a nationwide program established in
 January 1997 to detect and stop fraudulent and fictitious claims for refunds on income tax
 returns. During Processing Year 2006, the System was not operational because the IRS and its
 contractors were unable to launch a web-based version of the EFDS application (Web EFDS),
 resulting in an estimated $318.3 million in fraudulent refunds being issued as of May 19, 2006.
 The IRS has improved controls over the EFDS restoration activities including executive
 governance and project management. As a result, project risks are being identified and
 mitigation actions are being taken to ensure the System is implemented and fraudulent refunds
 stopped during Processing Year 2007.



 1
  See Appendix VIII for a Glossary of Terms.
 2
  The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being
 Identified (Reference Number 2006-20-108, dated August 9, 2006).
                Oversight of the Electronic Fraud Detection System Restoration
                          Activities Has Improved, but Risks Remain




Synopsis
On April 19, 2006, all system development activities for the Web EFDS were stopped and all
efforts were focused on restoring the client-server EFDS for use in January 2007. The
restoration effort requires the contractors to prepare the System and the related databases for
Processing Year 2007 by starting with the Processing Year 2005 EFDS and updating it with
the 2006 and 2007 tax law changes. Therefore, the System restoration work to be completed by
the contractors involves the routine annual update of the System with tax law changes and does
not contain the level of complexity involved in redesigning it into a web-based system.
In the prior EFDS audit, we reported the IRS did not ensure the EFDS project had the required
executive oversight, manage the System risks effectively, monitor contractor performance
effectively, and use performance-based contracts. The EFDS project also was improperly
classified as a steady state project in the business case. During this audit, we determined that
IRS management completed several corrective actions in response to our prior audit report.
The IRS improved executive oversight of the EFDS project by requiring the status and risks of
the project be reported at various meetings. Additionally, project management controls were
improved. For example, regular meetings are held with
stakeholders and contractors to ensure tasks are on target
                                                                 IRS management implemented
for timely completion and risks are addressed. If tasks are         executive oversight and
not completed when scheduled, the effect on the overall          improved project management
schedule is determined and remedial actions are taken, if        controls. However, the Federal
needed.                                                         Government may not receive the
                                                                   full amount of the equitable
The EFDS Project Office also obtained project                            adjustment.
management support from contractor Booz Allen Hamilton,
Inc., and obtained independent assessments of the System
from the MITRE Corporation at an estimated cost of $1,722,132. These expenses are considered
inefficient use of resources because the expenses would not have been incurred if the Web EFDS
had been implemented in Processing Year 2006 (see Appendix IV).
Although project management controls have improved, as of the time of our review on
December 8, 2006, risks remained as several critical tasks had not been completed. For example,
the EFDS (applications and 3 years of data) must be loaded into the production environment,
final integration testing must be completed, and the required Enterprise Life Cycle documents
must be prepared.
This audit was conducted while the IRS was performing restoration activities to implement the
System in Processing Year 2007. Any changes that occurred since we completed our analysis in
December 2006 are not reflected in this report. As a result, this report may not reflect the most
current status of the EFDS project. According to the IRS, the System was placed into production
on January 16, 2007.
                                                                                                   2
                Oversight of the Electronic Fraud Detection System Restoration
                          Activities Has Improved, but Risks Remain



During this audit, we also determined the Contracting Officer’s Technical Representative
oversight of the Computer Sciences Corporation (CSC) had not changed significantly and the
EFDS Project Office is in the process of drafting procedures for monitoring acquisitions.
Meanwhile, compensating controls, such as the improvements in project management, mitigate
the oversight risks.
The IRS recently issued a contract for an estimated amount of $3,080,004 for restoration work to
be performed from November 1, 2006, through February 24, 2007. We reviewed the contract
and found that payment of the contractor’s fee is not dependent on the timely delivery of specific
System deliverables or milestones. The contract also established a cost sharing amount not to
exceed $3,080,004 as an equitable adjustment amount to compensate the IRS for the cost to
restore the client-server EFDS. However, the agreement does not include a provision that would
refund the unused equitable adjustment to the IRS and the cost sharing commitment is
exclusively related to delivering a client-server EFDS in January 2007.
Based on our review of the EFDS project work breakdown structure (i.e., a list of all tasks
required to complete the project) it does not appear the CSC has $3,080,004 worth of work
remaining on the restoration project. The EFDS Executive agreed with this conclusion and
stated the CSC has verbally agreed to work on two application changes unrelated to the
restoration work to ensure the IRS will receive the $3,080,004 equitable adjustment. However,
the contract states the CSC’s cost sharing commitment is exclusively related to delivering a
client-server-based System and will not apply to any Federal Government directed scope
increases. Therefore, the IRS will be obligated to pay the contractor’s fee if a functional EFDS
is not implemented timely and the IRS may not receive the entire equitable adjustment.

Recommendation
We recommended the Chief Information Officer work with the Director, Procurement, to ensure
the IRS receives all of the $3,080,004 equitable adjustment from the CSC. If the entire
adjustment is not received by the end of the original period of performance stated in the contract,
the IRS should request the CSC pay the IRS the difference between the $3,080,004 and the credit
the IRS received during the period of performance. Alternatively, the IRS should request the
application of the remaining equitable adjustment credit owed to the IRS to invoices for future
EFDS-related task orders or for other work being performed by the CSC.

Response
IRS management agreed with the recommendation and prepared a modification to the task order
to ensure the IRS receives the full equitable adjustment. The modification, signed by the IRS
and the CSC on February 23, 2007, extends the base period of performance and includes


                                                                                                   3
               Oversight of the Electronic Fraud Detection System Restoration
                         Activities Has Improved, but Risks Remain



additional work within the scope of the cost sharing agreement. Management’s complete
response to the draft report is included as Appendix IX.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                             4
                      Oversight of the Electronic Fraud Detection System Restoration
                                Activities Has Improved, but Risks Remain




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Executive Oversight of the Electronic Fraud Detection System Has
          Improved .......................................................................................................Page 3
          Electronic Fraud Detection System Restoration Project Management
          Controls Have Been Improved, but Risks Remain .......................................Page 5
          Contracting Activities Have Improved, but a Cost Reimbursement Issue
          Remains.........................................................................................................Page 9
                    Recommendation 1:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Outcome Measures...............................................................Page 18
          Appendix V – Electronic Fraud Detection System Management.................Page 20
          Appendix VI – Electronic Fraud Detection System Oversight.....................Page 21
          Appendix VII – Electronic Fraud Detection System Project Timeline ........Page 23
          Appendix VIII – Glossary of Terms .............................................................Page 25
          Appendix IX – Management’s Response to the Draft Report ......................Page 29
           Oversight of the Electronic Fraud Detection System Restoration
                     Activities Has Improved, but Risks Remain




                           Abbreviations

CIO                  Chief Information Officer
COTR                 Contracting Officer’s Technical Representative
CSC                  Computer Sciences Corporation
EFDS, System         Electronic Fraud Detection System
ESC                  Executive Steering Committee
IRS                  Internal Revenue Service
MITRE                MITRE Corporation
MITS                 Modernization and Information Technology Services
PY                   Processing Year
Web EFDS             Web Electronic Fraud Detection System
                    Oversight of the Electronic Fraud Detection System Restoration
                              Activities Has Improved, but Risks Remain




                                             Background

The Electronic Fraud Detection System (hereafter referred to as the EFDS or System)1 is an
automated compliance system designed to maximize fraud detection when tax returns are filed
and prevent the issuance of fraudulent refunds. The EFDS is the primary information system
used to support the Criminal Investigation Division’s Questionable Refund Program, which is a
nationwide program established in January 1977 to detect and stop fraudulent and fictitious
claims for refunds on income tax returns.
In January 2006, the Internal Revenue Service (IRS) planned to launch a web-based version of
the EFDS application (Web EFDS) after failing to implement the Web EFDS in January 2005
because of system development problems. However, the IRS and its contractors were
unable to provide a functioning Web EFDS to prevent fraudulent refunds during Processing
Year (PY) 2006. During PY 2006, the System was not operational, resulting in an estimated
$318.3 million in fraudulent refunds being issued as of May 19, 2006.
On April 19, 2006, all system development activities for the Web EFDS were stopped, and all
efforts were focused on restoring the client-server EFDS for use in January 2007. The
restoration effort requires the contractors to prepare the System and the related databases for
PY 2007 by starting with the PY 2005 EFDS and updating it with the 2006 and 2007 tax law
changes. Therefore, the System restoration work to be completed by the contractors involves the
routine annual update of the System with tax law changes and does not contain the level of
complexity involved in redesigning the System into a web-based system.
Five contractors are involved in various EFDS activities. Three of the contractors are working to
restore the System for PY 2007, while the remaining two contractors provide program
management support. The responsibilities of the five contractors include the following:
      •    Computer Sciences Corporation (CSC), the primary contractor, is responsible for
           delivering a fully operational client-server-based System in January 2007. As of
           December 11, 2006, the total amount paid to the CSC for System restoration work was
           $2,613,953. In addition, a task order with an estimated cost of $3,080,004 was approved
           on October 24, 2006, for restoration work to be performed through February 24, 2007.
      •    Systems Research and Applications Corporation is responsible for providing and
           maintaining data-mining techniques used by the EFDS. As of December 11, 2006, the
           total amount paid to the Systems Research and Applications Corporation for the System
           restoration was $167,584. In addition, a task order with an estimated cost of $420,648


1
    See Appendix VIII for a Glossary of Terms.
                                                                                            Page 1
                  Oversight of the Electronic Fraud Detection System Restoration
                            Activities Has Improved, but Risks Remain



        was approved on July 28, 2006, for work to be performed through July 31, 2007. The
        remaining funds available for this task order are $336,859.
    •   Anteon Corporation is responsible for providing maintenance support for the EFDS
        client-server application and database. A task order was approved on August 15, 2006,
        with an estimated cost of $1,500,000 for work to be performed between April 11, 2006,
        and February 24, 2007. Because the work performed by Anteon Corporation is critical to
        the System restoration, it was allowed to begin work before the task order was approved.  
        As of December 11, 2006, the total amount paid to the Anteon Corporation for the EFDS
        restoration was $707,006. The remaining funds available for this task order are
        $792,994.
    •   Booz Allen Hamilton, Inc. is responsible for providing EFDS Project Office support. A
        task order with an estimated cost of $1,201,378 for project management support services
        was awarded July 6, 2006, for work to be performed through July 1, 2007.
    •   MITRE Corporation (MITRE) is responsible for providing independent assessments of
        the System restoration activities. A task order with an estimated cost of $103,024 was
        approved on September 14, 2006, for work to be performed through December 31, 2006.
This review is a follow-up to a prior Treasury Inspector General for Tax Administration audit.2
This review was performed at the Modernization and Information Technology Services (MITS)
organization offices in New Carrollton, Maryland, and Washington, D.C., during the period
October through December 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




2
 The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being
Identified (Reference Number 2006-20-108, dated August 9, 2006).
                                                                                                      Page 2
                   Oversight of the Electronic Fraud Detection System Restoration
                             Activities Has Improved, but Risks Remain




                                       Results of Review

Executive Oversight of the Electronic Fraud Detection System Has
Improved
The Clinger-Cohen Act of 19963 requires agencies to use a disciplined Capital Planning and
Investment Control process to acquire, use, maintain, and dispose of information technology
assets. The Office of Management and Budget Circular A-11, Preparation, Execution, and
Submission of the Budget, dated June 2006, requires each agency to include with its annual
budget submission an information technology investment portfolio, commonly referred to as an
Exhibit 53, containing the information technology investment title, description, amount, and
funding source. For each major information technology investment, the Office of Management
and Budget requires agencies to include Circular A-11 Exhibit 300, Capital Asset Plan and
Business Case, with their budget submissions.
The IRS’ Capital Planning and Investment Control process for managing information technology
projects established an executive governance process for monitoring projects that included the
MITS Enterprise Governance Committee, the MITS Enterprise Governance Investment
Management Subcommittee, and Executive Steering Committees (ESC) responsible for specific
projects. Major projects with costs of more than $5 million per year or total lifecycle costs of
more than $50 million were to be governed by the executive governance process. Formal
agendas, presentations, and meeting minutes are prepared for each ESC meeting including
documenting key decisions and assignments. To assess the controls over the EFDS project, we
reviewed the policies and procedures applicable to the project and determined whether they were
implemented effectively.
In the prior EFDS audit, we reported the Exhibit 300 improperly classified the EFDS as a steady
state project. This was improper because, at the time, the IRS was in the process of developing
the Web EFDS. In addition, information in the Exhibit 300 was not consistent and presented the
EFDS as both a steady state system and a system under development.
The EFDS project did not have continuous ESC oversight as required by the Capital Planning
and Investment Control process. Instead, there was ESC oversight from June 2002 until
July 2003. Afterwards, oversight was provided by Business Systems Development organization



3
 Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 3
                  Oversight of the Electronic Fraud Detection System Restoration
                            Activities Has Improved, but Risks Remain



executives who were also responsible for managing the maintenance and development work for
more than 325 IRS systems.
We also reported that key decisions relating to the Web EFDS development were not adequately
documented. Consequently, we made the following recommendations:
    •   Recommendation 1: The Chief Information Officer (CIO) should ensure the EFDS
        project is assigned to an ESC for executive oversight, including documenting key
        decisions and assignments.
    •   Recommendation 2: The CIO should evaluate other projects being managed in the new
        Applications Development organization and ensure all projects are assigned to the
        appropriate oversight process. High-risk projects, like the EFDS, should also be included
        in the Senior Management Dashboard Review process.
    •   Recommendation 3: The CIO should ensure the business case and the information
        technology investment portfolio are revised to categorize the EFDS project properly and
        include accurate and consistent information.
During this audit, we determined that IRS management
implemented executive governance oversight and completed          IRS management implemented
several corrective actions in response to our prior audit             executive oversight and
                                                                   completed several corrective
report. For example, the EFDS project was assigned to the         actions in response to our prior
Compliance ESC.4 Discussion items, actions, and decisions               audit report. As of
resulting from these meetings are documented in the                December 8, 2006, the EFDS
meeting minutes. This corrective action addresses                   Project Office reported the
Recommendation 1 from the prior audit report. The System           project was on schedule and
                                                                 implementation was expected to
is also included in the Senior Management Dashboard                 occur on January 16, 2007.
Review. The System risks, issues, and mitigation strategies
identified at the Senior Management Dashboard Review
meetings are documented and tracked. The Senior Management Dashboard Review is attended
by one or more executives from the Enterprise Services organization and representatives of the
projects under review. This corrective action partially addresses Recommendation 2 from the
prior audit report. The IRS Commissioner is also briefed monthly on the status of the System
activities by the CSC (see Appendix VI for a list of recurring executive briefings).
The IRS stopped the Web EFDS development and is restoring the client-server EFDS for use in
PY 2007. The EFDS Project Office revised the Exhibit 300 to correctly support classifying the


4
 On October 16, 2006, the MITS Enterprise Governance Committee approved the reconfiguration of the
Compliance ESC into the Reporting Compliance and the Filing and Payment Compliance ESCs. On
November 15, 2006, the MITS Enterprise Governance Committee approved keeping the EFDS in the Reporting
Compliance ESC until the filing season is complete, then the EFDS will be moved to the Criminal Investigation
ESC.
                                                                                                          Page 4
                Oversight of the Electronic Fraud Detection System Restoration
                          Activities Has Improved, but Risks Remain



System restoration as a steady state project. On September 11, 2006, the IRS submitted a revised
Exhibit 300 which was approved by the Department of the Treasury. This corrective action
addresses prior audit Recommendation 3. The remaining corrective actions, which are to
evaluate other projects and assign them the appropriate oversight, are in process and scheduled to
be completed by April 1, 2007.
Continuous executive oversight of a project helps to ensure risks are identified and mitigated. As
of December 1, 2006, the EFDS Project Office reported the project is on schedule and
implementation is expected to occur on January 16, 2007.

Electronic Fraud Detection System Restoration Project Management
Controls Have Been Improved, but Risks Remain
The Department of the Treasury Publication 84-01, Information System Life Cycle Manual, dated
March 2002, states that general standardization of life cycle management ensures systems are
developed, acquired, evaluated, and operated efficiently, within prescribed budget and schedule
constraints, and are responsive to mission requirements. In addition, the IRS system
development guidelines (currently, the Enterprise Life Cycle - Lite) stipulate that, as part of the
information system life cycle management process, project management should identify project
risks early and manage them before they become problems. The risk management process
encompasses the identification of risk issues, assessment of risk to define probability and impact,
preparation and implementation of risk mitigation and risk contingency plans, and continuous
monitoring of those actions to ensure effectiveness. Risk management is used to ensure critical
areas of uncertainty are surfaced early enough to be addressed without adversely affecting cost,
schedule, or performance.
In the prior EFDS audit, we reported that the risks were not managed effectively; status meetings
with stakeholders were held, but the meeting results were not documented sufficiently, if at all;
individuals were not held accountable for timely completion of tasks; a process to adequately and
independently confirm the completion of tasks had not been established nor documented; and
key management documents were not prepared or properly maintained. As a result, we made the
following recommendations:
   •   Recommendation 4: The CIO should ensure project risks are identified properly and
       plans are prepared to reduce the risks affecting the successful development of the project.
   •   Recommendation 5: The CIO should ensure the proper system development life cycle
       methodology is implemented for the EFDS development, based on the types of changes
       being made to the system.
For the current client-server EFDS restoration project, the EFDS Project Manager monitors the
contractor and IRS progress and performance to ensure the project is on schedule. During the
Web EFDS development, the EFDS Project Manager was also the EFDS/Questionable Refund

                                                                                            Page 5
                Oversight of the Electronic Fraud Detection System Restoration
                          Activities Has Improved, but Risks Remain



Program Section Chief and performed some of the CSC Contracting Officer’s Technical
Representative (COTR) duties. For the EFDS restoration project, the three duties were assigned
to separate individuals. See Appendix V for a list of the individuals responsible for the EFDS
project. IRS management stated that spreading out the assignments made the project less
difficult to manage. In addition, the CSC no longer maintains the project work breakdown
structure (i.e., a list of all tasks and the tasks completion dates required to complete the project
timely). Instead, it is maintained by Booz Allen Hamilton, Inc. which is providing program
management support to the EFDS Project Office. The project tasks are divided into shorter
manageable increments to facilitate task monitoring, validation, and inclusion on the project
schedule.
Improvements in project management controls include holding regular meetings with
stakeholders and contractors to ensure tasks are on target for timely completion and risks are
addressed. If tasks are not completed when scheduled, the impact on the overall schedule is
determined and remedial actions are taken, if needed. Stakeholder involvement ensures that
activities and decisions adequately address the business concerns and completed tasks are
satisfactory. Examples of meetings held include the Weekly Stakeholder Status Meetings, the
Weekly Technical Meetings, and the Filing Season
Readiness Meetings (see Appendix VI for a list of
recurring meetings).                                         EFDS project management and risk
                                                               identification and mitigation have
In addition, a process was established, documented,        improved. For example, if tasks are
and implemented to monitor the status and verify the       not completed when scheduled, the
                                                            impact on the overall schedule is
satisfactory completion of tasks. Risks and mitigation     determined and remedial actions are
activities discussed during the weekly stakeholder                   taken, if needed.
status meetings are documented in status reports and/or
meeting minutes and a database maintained by Booz
Allen Hamilton, Inc. This corrective action and the executive oversight discussed above address
prior audit Recommendation 4.
The Enterprise Life Cycle Project Office also performed an analysis to determine what
Enterprise Life Cycle - Lite documents should be produced for a steady state project. On
October 30, 2006, the Compliance ESC gave the EFDS Project Office approval to limit the
Enterprise Life Cycle documents to five required documents (Business Systems Requirements
Report, Requirements Traceability Matrix, Test Plan, Transition Management Plan, and
508 Compliance). Figure 1 provides the status of the EFDS Project Office’s preparation of the
documents as of October 31, 2006. This corrective action addresses prior audit
Recommendation 5.




                                                                                              Page 6
               Oversight of the Electronic Fraud Detection System Restoration
                         Activities Has Improved, but Risks Remain



                 Figure 1: Status of Enterprise Life Cycle Documents
                Document Name                               Preparation Status
                Business Systems Requirements Report        Completed
                Requirements Traceability Matrix            Completed
                Test Plan                                   Completed
                Transition Management Plan                  In Planning
                508 Compliance                              In Process
              Source: EFDS Project Office.

As previously stated, the EFDS Project Office contracted with Booz Allen Hamilton, Inc. to
provide program/project management support for the restoration of the client-server EFDS
application. The estimated cost of this program management support is $1,201,378. The
contract states Booz Allen Hamilton, Inc. employees will:
   •   Help to accurately monitor and timely report risks, issues, project status, and action
       items.
   •   Provide technical architecture support to help assess technical issues caused by the
       PYs 2006 and 2007 changes.
   •   Maintain the work breakdown structure and enter start and completion dates into the
       schedule. When a completion date has not been met or it appears that a completion date
       will not be met, contractor support determines the effect of the delay on other tasks, the
       overall schedule, and the stakeholders.
MITRE was also hired as the IRS’ Federally Funded Research and Development Center to
perform two independent studies of the System. The first study, dated June 9, 2006, cost the IRS
$417,730 and determined the root causes of the Web EFDS performance issues and
recommended actions to address those issues. The study also assessed the EFDS Web Portal
system, rendered an opinion on its future viability, and recommended actions to apply the lessons
learned from the System situation across the information technology portfolio to improve the
delivery of other projects of similar size, scope, and complexity. MITRE stated the Web EFDS
application and database were good products and with additional work, could be implemented.
Due to the focus on the System restoration, the EFDS Project Office only implemented
recommendations that would help in the System restoration efforts and that could be done
quickly. Decisions on whether the other recommendations will be implemented have not been
made.
The second MITRE study, dated October 5, 2006, will cost an estimated $103,024 and assessed
the client-server EFDS’ readiness to successfully perform refund fraud detection functions in

                                                                                              Page 7
               Oversight of the Electronic Fraud Detection System Restoration
                         Activities Has Improved, but Risks Remain



PY 2007. MITRE issued a preliminary assessment stating the project is on a path for successful
implementation and there were no significant issues or risks that would prevent delivery of a
functioning system by January 2007. MITRE planned to reassess EFDS project readiness on or
after November 17, 2006, after PY 2006 data loads were completed and after the Criminal
Investigation Division completed its data quality reviews. However, on December 6, 2006, the
EFDS Executive advised us the IRS will not be inviting MITRE to perform another readiness
assessment because the project is on schedule and he did not want to subject the EFDS Project
Office to another third-party review as it would not provide any new information.
The IRS will spend an estimated $1,722,132 for Booz Allen Hamilton, Inc. project management
support and MITRE independent assessments. These expenses are considered inefficient use of
resources because the expenses would not have been incurred if the Web EFDS had been
implemented in PY 2006 (see Appendix IV).
Overall, oversight of the client-server EFDS restoration project has improved because
management implemented effective project management controls and completed several
corrective actions in response to our prior audit report. However, as of December 8, 2006, risks
remained as several critical tasks had not been completed.
   •   The EFDS (applications and 3 years of data) must be loaded into the production
       environment. The planned completion date is December 29, 2006.
   •   Final integration testing must be completed. The planned completion date is
       December 29, 2006.
   •   Security Certification and Accreditation must be completed. The planned completion
       date is January 8, 2007.
   •   Disaster recovery testing will not be performed prior to the January implementation. It is
       scheduled to occur after the filing season. The tentative test date is September 2007 and
       this test is included in a broader IRS disaster recovery test.
As a result of improved project management, risks identified thus far have been mitigated and
the System restoration is on schedule for the January 16, 2007, implementation.
This audit was conducted while the IRS was performing restoration activities to implement the
System in PY 2007. Any changes that occurred since we completed our analysis in
December 2006 are not reflected in this report. As a result, this report may not reflect the most
current status of the EFDS project. According to the IRS, the System was placed into production
on January 16, 2007.




                                                                                          Page 8
     --
                  Oversight of the Electronic Fraud Detection System Restoration
                            Activities Has 1-0   ved, but Risks Remain




Contracting Activities Have Improved, but a Cost Reimbursement
Issue Remains
The Federal Acquisition Regulation5holds contractors responsible for timely contract
performance; however, the Federal Government is also responsible for monitoring contractor
performance, as necessary, to protect its interest. This monitoring should include comparing a
contractor's performance plans, schedules, controls, and processes against the contractor's achal
performance; determining the contractor's progress; and identifying any factors that may delay
performance. Agencies are also required to develop quality assurance surveillance plans when
acquiring services specifying the work requiring surveillance and the method of surveillance.
The IRS Office of Procurement Policy best practices state that a planned surveillance effort is
necessary to measure contractor performance and ensure successful completion of tasks.
Contracting Officers are responsible for ensuring performance of all necessary actions for
effective contracting, ensuring compliance with the terms of the contract, and safeguarding the
interests of the Federal Government in its contractual relationships. Since many of the
Contracting Officers7responsibilities can be delegated to a COTR, the COTR plays a critical role
in the technical administration of Federal Government contracts to assure that the Government
receives the supplies or services in accordance with the contracts7specifications. COTR
responsibilities usually include monitoring contractor performance and schedule; acknowledging
receipt of supplies or services with an acceptance certificate; reviewing, commenting, and
accepting or rejecting deliverables, as well as providing written evaluation of each major
deliverable; and reviewing and verifying the contractor's invoices for hours expended and costs
incurred.
While contracting officials should always check the mathematical accuracy of invoices to avoid
any overpayment to the contractor, cost-reimbursement contracts require a more indepth review
of invoices to ensure costs are not incurred prematurely and relate to progress under the contract.
As a result, COTR activities should include checking the invoice date against the contract
performance period to ensure costs are being billed for the proper time period; comparing the
contractor's billing rates against the contract rates to ensure indirect costs are being properly
billed; reviewing the contractor's time cards, sign-in sheets, and overtime records to help assess
the reasonableness of direct costs; and maintaining monthly reports or spreadsheets on costs
incurred against the contract amount.




 48 C.F.R. ch. 1 (2005).
                                                                                            Page 9
                       Oversight of the Electronic Fraud Detection System Restoration
                                 Activities Has Improved, but Risks Remain
         --




              Recommendation 6: The CIO should ensure contractors are accountable for performance
              by developing performance-based requirements for new EFDS contracts. The CIO
              should also consider employing cost-sharing arrangements for future task orders so both
              the IRS and contractor share the risk of project development cost overruns.
              Recommendation 7: The CIO should ensure COTRs are trained adequately and their
              duties are performed properly to monitor contractor performance effectively through
              planned surveillance efforts and independent inspections of contractor work, as described
              by IRS Office of Procurement Policy best practices.
              Recommendation 8: The CIO and the Director, Procurement, should initiate discussions
              with the contractor to recover the funds paid to the contractor to restore the old EFDS for
              use in PY 2005 and any additional costs resulting from nondelivery of a functional
              Web EFDS.
              Recommendation 9: The CIO should defer additional work on the Web EFDS until the
              IRS decides who will perform the EFDS work. If some or all of the work will transfer to
              other business units, the CIO should ensure their requirements are identified before
              initiating a contract for further development of the Web EFDS. The contract should be
              opened to competition.

    COTR oversiqht has not siqnificantlv changed, but compensatinq controls
    mitiqate the risks

                                               IWe determined that COTR oversight has not changed
    significantly. As in the prior audit, the new COTR attends meetings with the contractors but still
    depends on EFDS Project management to provide confirmation of the status of tasks and receipt
    and acceptability of deliverables. The EFDS Project Ofice is aware of this dependency and has
    mitigated this risk by obtaining the confirmations from the stakeholders through its weekly
    System status reporting process.
The COTR now reviews invoices and obtains feedback from the IRS technical points of contact
and EFDS Project Office personnel to confirm technical accuracy of deliverables. However, our
review of the controls over the procurement process identified issues similar to those found in
the prior audit. For example@d)
I



                                                                                                 Page 10
               Oversight of the Electronic Fraud Detection System Restoration
                         Activities Has Improved, but Risks Remain



EFDS Project Office is in the process of drafting procedures for monitoring acquisitions.
Corrective actions for Recommendation 7 are scheduled to be completed by January 1, 2007.

The equitable adjustment agreement does not ensure the IRS will receive the full
amount of the cost reimbursement
The IRS recently issued a Treasury Information Processing Support Services-3
cost-plus-fixed-fee contract that established a base period of performance of November 1, 2006,
through February 24, 2007, for EFDS restoration work at an estimated cost of $3,080,004. The
IRS reported in the Joint Audit Management Enterprise System that this contract award
completed the corrective action for Recommendation 6 and originally stated that a percentage of
the contractor’s fee would be dependent upon timely delivery of specified milestones. The Joint
Audit Management Enterprise System was updated subsequently to state that a percentage of the
contractor’s fee was associated with specific deliverables. However, we reviewed the signed
contract and found that payment of the contractor’s fee was not dependent on the timely delivery
of EFDS milestones or specific deliverables, and the contract did not include milestones. As a
result, the Federal Government’s interest is not protected because it would be obligated to pay
the contractor’s fee if a functional EFDS is not implemented timely. Regarding
Recommendation 6 to use performance-based contracts, the IRS stated that future contracts for
completion of the Web EFDS will be performance-based.
The contract also established a cost sharing amount not to
exceed $3,080,004 ($2,859,253 cost reimbursement amount
and $220,751 fee) as an equitable adjustment amount. The           Based on the contract and the
                                                                   remaining CSC work identified
CSC agreed to credit each invoice submitted to the IRS for              in the work breakdown
work performed during the base period of performance for the             structure, the Federal
cost incurred plus a fee. However, the agreement did not          Government may not receive the
include a provision that would refund the unused equitable             full equitable adjustment.
adjustment to the IRS. The equitable adjustment was included        However, the EFDS Executive
                                                                     stated the CSC has verbally
in the contract as a response to Recommendation 8 from the          agreed to work on additional
prior audit report.                                                application changes (unrelated
                                                                      to the restoration work) to
Based on our October 25, 2006, meeting with the EFDS                 ensure the IRS receives the
Project Manager and our review of the work breakdown              $3,080,004 equitable adjustment.
structure, most of the CSC’s work was completed by
October 2006. Thus, it does not appear the CSC has
$3,080,004 of work remaining. This is also supported by the EFDS Executive’s August 3, 2006,
comment to CSC and MITS executives, “Since much of the cost for restoring the EFDS will
likely have been incurred before this agreement is finalized, some of the CSC’s cost sharing will
likely be in force after the restoration is complete and the EFDS is in operations and
maintenance.” On December 6, 2006, the EFDS Executive agreed with our conclusion and
explained that, if the contract had been signed timely, this would not have been a problem. The
EFDS Executive stated the CSC was aware of this and has verbally agreed to work on two
                                                                                         Page 11
               Oversight of the Electronic Fraud Detection System Restoration
                         Activities Has Improved, but Risks Remain



application changes (unrelated to the restoration work) to ensure the IRS will receive the
$3,080,004 equitable adjustment. However, the contract states the CSC’s cost sharing
commitment is related exclusively to delivering a client-server-based System and will not apply
to any Federal Government directed scope increases. Again, the Federal Government’s interest
has not been protected because the CSC could bill the IRS for the work that is unrelated to the
System restoration without crediting the IRS for the unused equitable adjustment.

Recommendation
Recommendation 1: The CIO should work with the Director, Procurement, to ensure the IRS
receives all of the $3,080,004 equitable adjustment from the CSC. If there is not enough work to
be completed by the CSC during the November 1, 2006, through February 24, 2007, period of
performance to enable the IRS to receive the full adjustment, the IRS should request that the
CSC pay the IRS the difference between the $3,080,004 and the credit the IRS received during
the period of performance. Alternatively, the IRS should request the application of the
remaining equitable adjustment credit owed to the IRS to invoices for future EFDS-related task
orders or for other work being performed by the CSC.
       Management’s Response: IRS management agreed with the recommendation and
       prepared a modification to the task order to ensure the IRS receives the full equitable
       adjustment. The modification, signed by the IRS and the CSC on February 23, 2007,
       extends the base period of performance and includes additional work within the scope of
       the cost sharing agreement.




                                                                                        Page 12
                    Oversight of the Electronic Fraud Detection System Restoration
                              Activities Has Improved, but Risks Remain



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS adequately monitored the
contractors’ development efforts in 2006 to ensure the EFDS1 was delivered in time for the
2007 Filing Season. To accomplish our objective, we:
I.         Determined whether the executive monitoring and project management processes were
           effective to ensure 2007 Filing Season implementation.
           A. Obtained and reviewed the minutes and briefing materials for the Compliance ESC
              and Senior Management Dashboard Reviews; the monthly briefings presented by the
              CSC (i.e., the PRIME contractor) to the IRS Commissioner; the MITS and Criminal
              Investigation Division Business Performance Reviews; the Enterprise Life Cycle Gap
              Analysis; and the results of the CIO’s program review of the EFDS project.
           B. Determined the effectiveness of project management controls.
               1. Interviewed EFDS Project Office management to determine how they monitored
                  contractor progress and performance. We also obtained and reviewed status
                  reports and project schedules used to monitor contractor progress and
                  performance and determined whether the status reports documented when critical
                  problems occurred initially, when they were elevated for resolution, and how
                  management validated the accuracy of the schedule.
               2. Obtained and reviewed minutes of the monthly meetings between the Compliance
                  Domain Director, EFDS Project Manager, Criminal Investigation Division
                  representative, and CSC personnel to determine the issues and related resolutions
                  that were discussed.
               3. Determined what risks were identified and whether risk mitigation plans were
                  prepared.
               4. Interviewed Criminal Investigation Division management to determine whether
                  they needed the System in advance to prepare and conduct their training.
               5. Interviewed EFDS Project Office and Criminal Investigation Division
                  management to determine what contingency plans were developed to minimize
                  the effect to the Questionable Refund Program in the event the client-server EFDS
                  was not implemented timely or with full functionalities.

1
    See Appendix VIII for a Glossary of Terms.
                                                                                           Page 13
               Oversight of the Electronic Fraud Detection System Restoration
                         Activities Has Improved, but Risks Remain



          6. Interviewed the IRS employees responsible for conducting the System
             Acceptability Testing for the restored EFDS to determine the status and results of
             testing as well as whether the contractor submitted quality products.
       C. Identified the contractor support that was obtained to assist the EFDS Project Office
          in the System restoration.
          1. Interviewed EFDS Project Office management to identify the contractors and the
             scope of their work on the restoration.
          2. Obtained the contracts/task orders/statements of work for the restoration efforts to
             determine the scope of work and restoration costs for each contractor and
             reviewed the CSC contract/task order/statement of work to determine the amount
             the IRS would receive as an equitable adjustment for the Web EFDS not being
             implemented in 2006.
          3. Validated the invoice amounts supplied by the COTR by comparing the invoice to
             information in the IRS’ Web Request Tracking System.
          4. Reviewed the MITRE report assessing the System restoration efforts to determine
             the effect, if any, on our audit work.
II.    Determined whether the COTRs for the contracts and task orders were effectively
       monitoring and documenting the contractors’ progress and performance on the System
       restoration work.
       A. Obtained and reviewed policies and procedures for monitoring contractor progress
          and performance.
       B. Interviewed the COTRs and identified their process for monitoring the contractors
          and performing independent inspections to ensure the work was on schedule and met
          the contract terms and user requirements. We also obtained and reviewed
          documentation of independent inspections, if performed.
       C. Obtained and reviewed status reports and minutes of meetings between the COTRs
          and contractors working on the EFDS project, if taken.
III.   Determined whether effective corrective actions were implemented to address the
       recommendations in the prior EFDS audit report, The Electronic Fraud Detection System
       Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being Identified
       (Reference Number 2006-20-108, dated August 9, 2006) and the MITRE report,
       Electronic Fraud Detection System (EFDS) Project Final Assessment Report
       Version 1.0, dated June 9, 2006.
       A. Reviewed the Joint Audit Management Enterprise System to determine the status of
          the corrective actions.

                                                                                         Page 14
        Oversight of the Electronic Fraud Detection System Restoration
                  Activities Has Improved, but Risks Remain



B. Obtained documentation to verify closed corrective actions were implemented.
C. Interviewed the EFDS Project Manager to determine the IRS’ decision on
   implementing the MITRE recommendations (e.g., the number of recommendations
   agreed to, implemented, rejected, etc.).




                                                                              Page 15
               Oversight of the Electronic Fraud Detection System Restoration
                         Activities Has Improved, but Risks Remain



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Tina Wong, Lead Auditor
Phung-Son Nguyen, Senior Auditor
Van Warmke, Senior Auditor
Olivia DeBerry, Auditor
Linda Screws, Auditor




                                                                                     Page 16
              Oversight of the Electronic Fraud Detection System Restoration
                        Activities Has Improved, but Risks Remain



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation SE:CI
Deputy Chief Information Officer OS:CIO
Deputy Chief, Criminal Investigation SE:CI
Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Procurement OS:A:P
Director, Refund Crimes SE:CI:RC
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                                Page 17
                Oversight of the Electronic Fraud Detection System Restoration
                          Activities Has Improved, but Risks Remain



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $1,201,378 (see page 5).

Methodology Used to Measure the Reported Benefit:
The EFDS Project Office has obtained program management support from Booz Allen Hamilton,
Inc. The support that contract employees will provide includes helping to accurately monitor and
timely report risks, issues, project status, and action items; providing technical architecture
support to help assess technical issues caused by the PYs 2006 and 2007 changes; and
maintaining the work breakdown structure. If the Web EFDS had been implemented in
PY 2006, program management support would not have been required. The estimated cost of the
project management support services is $1,201,378.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $417,730 (see page 5).

Methodology Used to Measure the Reported Benefit:
The IRS hired the MITRE to perform a study to determine the root causes of the Web EFDS
project performance issues and recommend actions to address those issues, assess the EFDS Web
Portal system and render an opinion on its future viability, and recommend actions to apply the
lessons from the System situation across the information technology portfolio to improve the
delivery of other projects of similar size, scope and complexity. If the Web EFDS had been
implemented timely and successfully in PY 2006, the IRS would not have requested the study
which is estimated to cost $417,730.




                                                                                          Page 18
                Oversight of the Electronic Fraud Detection System Restoration
                          Activities Has Improved, but Risks Remain



Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $103,024 (see page 5).

Methodology Used to Measure the Reported Benefit:
The IRS hired the MITRE to perform a study to assess the client-server EFDS’ readiness to
successfully perform refund fraud detection functions in PY 2007. If the Web EFDS had been
implemented timely and successfully in PY 2006, the IRS would not have requested the study
which is estimated to cost $103,024.




                                                                                     Page 19
                    Oversight of the Electronic Fraud Detection System Restoration
                1             Activities Has Improved, but Risks Remain




                                                                                             Appendix V

                     E/ectronic Fraud Detection System
                                Management

                      ~    i   t    l   e Employee's
                                           l         Name
                                                                   I               Date




1
    The EFDS was placed in the Compliance domain,in the new Applications Development organization.
                                                                                                     Page 20
                 Oversight of the Electronic Fraud Detection System Restoration
                           Activities Has Improved, but Risks Remain



                                                                                       Appendix VI

        Electronic Fraud Detection System Oversight

        Figure 1: Meetings Attended by the EFDS Project Staff, Stakeholders,
        Contractors and/or Executives Assigned to Oversee the EFDS Project
                                 Meetings                                            Frequency
   Stakeholder status meetings are held to discuss and analyze the project
                                                                                      Weekly
   status and schedule, risks, and risk mitigation strategies.
   Technical meetings are held to review and propose solutions to
   technical issues regarding the EFDS restoration effort                             Weekly
   (e.g., application change requests, user or system requirements, etc.).
   The COTRs and contractors meet to discuss the status of the project
                                                                                     Bi-weekly
   (e.g., whether work is on schedule and meets the users’ needs).
   Senior Management Dashboard Review meetings are held to facilitate
   common understanding of the status of each project among
                                                                                      Monthly
   Government and contractor representatives. Only problem areas or
   notable status changes are discussed.
   ESC meetings are held to oversee investments and ensure business
                                                                                      Monthly
   risks are known and quantified.
   Filing Season Readiness meetings are held to discuss the status and       Weekly - prior to the filing
   issues regarding requests for application changes needed for the filing             season.
   season.                                                                    Daily - during the filing
                                                                                       season.
Source: EFDS Project Office and various IRS documents.




                                                                                                 Page 21
               Oversight of the Electronic Fraud Detection System Restoration
                         Activities Has Improved, but Risks Remain



                Figure 2: Meetings the EFDS Project Office Reported
                         It Provides Project Status Briefings
                                Meetings                              Frequency
      Commissioner’s Monthly Meeting                                   Monthly
      Filing Season Executive Meeting                                  Monthly
      Business Performance Reviews                                    Quarterly
      Operational Reviews of the Applications Development Domain      Quarterly
      Project Status Review                                           Quarterly
Source: EFDS Project Office.




                                                                              Page 22
          ,   Oversight of the Electronic Fraud Detection System Restoration
          i
                        Activities Has Improved, but Risks Remain




                                                                          Appendix VII

Electronic Fraud Detection System Project Timeline




                    Corporation for the period August 1,2006, through July 3 1,2007, with
                    an estimated cost of $420,648 for providing and maintaining data-mining
                    techniques used by the System.


                    $1,500,000 for maintenance of the EFDS client-server application and
                    the database supporting the application.
September 14,2006 The IRS approved a modification to an existing task order for the
                  MITRE for the period July 3,2006, through December 3 1,2006. The
                  modification had an estimated cost of $103,024 for independent
                  assessments of the restoration activities.
 October 24,2006   The IRS approved a task order under the Treasury Information
                   Processing Support Services - 3 contract for the CSC for the period
                   November 1,2006, through February 24,2007, with an estimated cost of
                   $3,080,004 for delivering a fully operational client-server-based EFDS
                   for PY 2007.



                                                                                   Page 23
             Oversight of the Electronic Fraud Detection System Restoration
                       Activities Has Improved, but Risks Remain



November 6, 2006    The IRS completed loading the 2006 daily tax return information into the
                    EFDS databases.
December 6, 2006    The IRS completed its test of the System application that will be used in
                    PY 2007.
December 29, 2006   The IRS is scheduled to complete the loading of the System applications
                    and 3 years of data into the production environment.
 January 8, 2007    The EFDS Security Certification and Accreditation is scheduled to be
                    completed.
 January 16, 2007   The System is scheduled for implementation in the production
                    environment.




                                                                                      Page 24
                Oversight of the Electronic Fraud Detection System Restoration
                          Activities Has Improved, but Risks Remain



                                                                              Appendix VIII

                                  Glossary of Terms

Business Case                        Required by Office of Management and Budget Circular
                                     A-11 (Preparation, Execution, and Submission of the
                                     Budget; dated June 2005) and commonly called Exhibit
                                     300, Capital Asset Plan and Business Case. Each agency
                                     must submit a business case twice each year for each
                                     major information technology investment.
Client-server                        A network architecture in which clients are personal
                                     computers or workstations on which users run
                                     applications. Clients rely on servers for resources such as
                                     files, devices, and even processing power.
Contracting Officer’s Technical      Furnishes technical direction, monitors contract
Representative                       performance, and maintains an arm’s-length relationship
                                     with the contractor.
Cost-Plus-Fixed-Fee Contract         A cost-reimbursement contract that provides for payment
                                     to the contractor of a negotiated fee that is fixed at the
                                     inception of the contract. This contract type permits
                                     contracting for efforts that might otherwise present too
                                     great a risk to contractors, but it provides the contractor
                                     only a minimum incentive to control costs.
Cost-Reimbursement Contract          A contract that provides for payment of allowable incurred
                                     costs, to the extent prescribed in the contract.
Data Loads                           A process of placing data into a system or database.
Data-Mining Technique                A process of automatically searching large volumes of
                                     data for patterns.
Enterprise Life Cycle - Lite         A required system development methodology for all
                                     nonmodernization projects.
Executive Steering Committee         A committee that oversees investments, including
                                     validating major investment business requirements and
                                     ensuring that enabling technologies are defined,
                                     developed, and implemented.


                                                                                         Page 25
                Oversight of the Electronic Fraud Detection System Restoration
                          Activities Has Improved, but Risks Remain



Federally Funded Research and       An organization that uses private resources to accomplish
Development Center                  tasks that cannot be effectively completed by existing
                                    Federal Government employees or contractors.
Filing Season                       The period from January through mid-April when most
                                    individual income tax returns are filed.
Information Technology              A portfolio required by Office of Management and Budget
Investment Portfolio                Circular A-11 and commonly referred to as an Exhibit 53.
                                    This portfolio must be submitted with each agency’s
                                    annual budget submission and contains the information
                                    technology investment title, description, amount, and
                                    funding source.
Joint Audit Management Enterprise   A system used to document and track the status of
System                              recommendations from audit reports and their
                                    corresponding corrective actions.
MITS Enterprise Governance          The highest level recommending and decision-making
Committee                           body to oversee and enhance enterprise management of
                                    information systems and technology. It ensures strategic
                                    modernization and information technology program
                                    investments, goals, and activities are aligned with and
                                    support 1) the business needs across the enterprise and
                                    2) the modernized vision of the IRS.
MITS Enterprise Governance          A body that supports the MITS Enterprise Governance
Committee Investment                Committee in the realization of the IRS Capital Planning
Management Subcommittee             and Investment Control process and with the management
                                    of the IRS information technology investment portfolio.
                                    This Subcommittee provides general information
                                    technology investment portfolio oversight, including
                                    operational analysis reviews and reports, investment
                                    prioritization recommendations, and recommendations for
                                    adjustments to the IRS portfolio.
Performance-based Contract          A contract that provides for acquiring services on the basis
                                    of required results rather than the methods of performing
                                    the work and uses measurable performance standards
                                    (e.g., in terms of quality, timeliness, quantity).
Processing Year                     The year in which tax returns and other tax data are
                                    processed.


                                                                                        Page 26
                Oversight of the Electronic Fraud Detection System Restoration
                          Activities Has Improved, but Risks Remain



Quality Assurance Surveillance    A plan that ensures services provided by the contractor
Plan                              meet contract requirements. It should specify the work
                                  requiring surveillance and the method of surveillance.
Questionable Refund Program       An application running on the mainframe computer. The
Computer Identification Program   Program was originally developed by the IRS Inspection
                                  Service and run by the Internal Audit function (now the
                                  Treasury Inspector General for Tax Administration Office
                                  of Audit).
Security Certification and        A security certification is an independent technical
Accreditation                     evaluation, for the purpose of accreditation, that uses
                                  security requirements as the criteria for the evaluation. An
                                  accreditation is an authorization granted by a management
                                  official to operate the system based on the evaluation of
                                  the security controls.
Senior Management Dashboard       A review attended by senior executives, contractors,
Review                            program directors, and project managers to ensure
                                  program directors and project managers are held
                                  accountable for the project status (e.g., risk, cost,
                                  schedule). Emphasis is placed only on problem areas or
                                  notable status changes.
Steady State                      Any information technology investment that is fully
                                  operational.
System Acceptability Testing      The process of testing a system or program to ensure it
                                  meets the original objectives outlined by the user in the
                                  requirement analysis document.
Task Order                        An order for services placed against an established
                                  contract or with Federal Government sources.
Treasury Information Processing   Contracts, awarded in 2006, that provide a broad range of
Support Services-3                information technology-related services.
Web EFDS                          The EFDS development effort allowing users to access the
                                  EFDS via the IRS Intranet.
Web Portal                        An Internet site or service that functions as a major
                                  starting site for users to connect to a broad array of
                                  resources and services, such as email, forums, research
                                  tools, online shopping malls, etc.


                                                                                        Page 27
             Oversight of the Electronic Fraud Detection System Restoration
                       Activities Has Improved, but Risks Remain



Web Request Tracking System   A web-based application that allows IRS personnel to
                              prepare, approve, fund, and track requests for the delivery
                              of goods and services. It also allows for electronic
                              acceptance of items delivered and provides an electronic
                              interface with the automated financial system for payment
                              processing.
Work Breakdown Structure      A project schedule used to manage the tasks, task
                              relationships, and resources needed to meet project goals.




                                                                                 Page 28
   Oversight of the Electronic Fraud Detection System Restoration
             Activities Has Improved, but Risks Remain



                                                     Appendix IX

Management’s Response to the Draft Report




                                                            Page 29
Oversight of the Electronic Fraud Detection System Restoration
          Activities Has Improved, but Risks Remain




                                                         Page 30
Oversight of the Electronic Fraud Detection System Restoration
          Activities Has Improved, but Risks Remain




                                                         Page 31
